                              UNITED STATES DEPARTMENT OF EDUCATION

                                                OFFICE OF INSPECTOR GENERAL


                                                           June 13, 2007


                                                                                                         CONTROL NUMBER
                                                                                                           ED-OIG/A17G0012

Lawrence Warder, Chief Financial Officer
Office of the Chief Financial Officer
United States Department of Education
Federal Building No.6, Room 4E313
400 Maryland Avenue, SW
Washington, DC 20202

Dear Mr. Warder:

This Final Audit Report entitled, Digital Analysis ofDepartment Purchase Card Activity,
presents the results of our audit. The objectives of our audit were to (1) identify abnormal
occurrences in purchase card activity, (2) determine effectiveness of controls related to
unexpected purchase card activity, and (3) review the unexpected purchase card activity for
potential fraud or abuse. Our review focused on purchase card activity during the period July 1,
2005 through June 30, 2006.



                                                      BACKGROUND 



Digital analysis is an audit technique designed to uncover abnormal occurrences of specific
digits or digit combinations in large sets of data. Unusual patterns of number occurrence may be
indicative of poor controls, fraud, or abuse. Benford's Law provides the expected rate of
occurrence for specific digit combinations. By comparing the Department's data to expected
rates of occurrence, unusual transactions can be identified for further review.

The Department issues Government Commercial Purchase Cards (purchase cards) to facilitate
the acquisition of goods and services for the Department. The purchase card is used for many
micro-purchases, which are purchases of $2,500 or less. It can also be used for purchases from
task order and delivery order contracts, and as a method ofpayment for simplified acquisitions,
which are purchases above $2,500 up to $100,000.

Pursuant to Section 807 of the Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005 (Pub. L. 108-375), effective September 28,2006, the Federal Acquisition Regulation
definition of micro-purchase threshold was changed. The micro-purchase threshold for supplies;
equipment and some services increased from $2,500 to $3,000. This change is outside of our
audit period of July 1, 2005 through June 30, 2006.



 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
Final Report                                                                   Page 2 of6
ED-OIG/A17G0012


The Department selected Bank of America (BOA) to provide purchase card support and services.
The Office of the Chief Financial Officer (OCFO)/Contracts and Acquisitions Management
(CAM) manages the purchase card program within the Department and is the liaison with BOA.
Executive Officers are responsible for administering the purchase card program in individual
Principal Offices. Approving Officials and Alternate Approving Officials are appointed by the
Executive Officer and are the primary officials responsible for authorizing cardholder purchases
and ensuring timely reconciliation of cardholder statements.



                                     AUDIT RESULTS 



We identified and reviewed unexpected occurrences in purchase card activity. Our review
revealed no indicators of fraud or ineffective controls. However, there is a lack of adherence to
the Department's purchase card Directive, resulting in recurring instances in which personal
parking expenses are being paid via the purchase card.

In response to the draft audit report, OCFO generally concurred with the recommendations and
provided a draft Corrective Action Plan (CAP) to address each recommendation. The full text of
OCFO's response is included as Attachment 1 to this audit report.

Finding - Use of Appropriated Funds For Non-governmental Purposes

Our review of selected purchase card transactions revealed that the Department's Advisory
Committee on Student Financial Assistance (Advisory Committee) is paying for the personal
parking expenses of two staff members via the purchase card. The parking is at a garage located
at the staff members' official duty station. During the one-year audit period there were seven
purchase card transactions between the Advisory Committee and Colonial Parking totaling
$4,291.06.

According to the Advisory Committee, this is a recurring expense. The Advisory Committee has
considered this expense to be a performance award for the Executive Director since 1997. In
1998, the Advisory Committee's former Executive Director approved the payment of personal
parking expenses for two additional staff members based on their performance evaluations. The
former Executive Director continued to approve payment of these benefits until he resigned in
2005. The Chairman ofthe Advisory Committee awarded the incoming Executive Director this
performance-based benefit for the remainder of his tenure as the Advisory Committee's
Executive Director. The Executive Director continues to approve payment of the Executive
Officer's personal parking expenses.

U.S. Department of Education Handbook OCFO-05, Handbook for Travel Policy, dated May 25,
2006, Chapter III: Making Travel Arrangements - Part C. Local Transportation (FTR 301­
70.102,301-70.200), provides that travel performed within a 35-mile radius ofthe employee's
duty station or place of daily commute is considered local travel. Reimbursement of expenses
Final Report                                                                  Page 3 of6
ED-OIG/A17G0012


for local travel is authorized only for costs incurred above and beyond an employee's normal
round trip commuting costs.

u.s. Department of Education Departmental Directive OCFO: 3-104, Government-wide
Commercial Purchase Card Program, dated January 23, 2002, states "this Directive applies to all
Departmental employees, education boards, commissions, and councils who participate in the
Department Purchase Card Program for the procurement of and payment of goods and services
for use by the Department ...."

u.s. Department of Education Departmental Directive OCFO: 3-104, Part VII. Requirements,
provides the card cannot be used for goods and services for personal (i.e., non-Governmental)
use.

Title 31, U.S. Code Section 1301 (a) provides that public funds may be used only for the purpose
or purposes for which they were appropriated except as otherwise provided by law. It prohibits
charging unauthorized items to an appropriation.

The Advisory Committee is not adhering to the Department's purchase card Directive. As a
result of the Advisory Committee's improper use of the purchase card, the Department is
incurring expenses that are for non-governmental use.

Recommendations:

To ensure that appropriated funds are used only for governmental purposes, we recommend that
the Chief Financial Officer:

       1.1 	 Reiterate to the Advisory Committee its responsibility to ensure purchase card
             transactions are only used for government purposes and to discontinue use of the
             purchase card for personal parking expenses.

       1.2 	 Determine the appropriateness and feasibility of the Department withholding future
             Advisory Committee funding in the amount of funds expended on personal parking
             expenses, and issuing a Form 1099-Miscellaneous Income to the individuals that
             received paid parking for the previous year.

OCFO Comments:

In response to the draft audit report, OCFO generally concurred with the recommendations and
provided a draft CAP to address each recommendation. The full text of OCFO' s response is
included as Attachment 1 to this audit report.
Final Report                                                                   Page 4 of6
ED-OIG/AI7GOOI2




                 OBJECTIVES, SCOPE, AND METHODOLOGY 



The objectives of our audit were to (1) identify abnonnal occurrences in purchase card activity,
(2) detennine effectiveness of controls related to unexpected purchase card activity, and (3)
review the unexpected purchase card activity for potential fraud or abuse.

To accomplish our audit objectives, we perfonned the following procedures:

       • 	 Reviewed OCFO/CAM quarterly reviews of selected purchase card activity;

       • 	 Reviewed Departmental Directives and OCFO procedures to gain an understanding of the
           purchase card program;

       • 	 Reviewed OCFO's Report to Congress on the Department of Education' s Requirements
           and Benchmarks to Reduce, Fraud, Misuse, and Abuse of Government Purchase Cards,
           dated August 1,2006; and the Department's OMB Circular Appendix A-123
           Implementation Acquisition Management Cycle Narrative on the Purchase Card Process,
           dated May 8, 2006, to detennine the procedures and controls the Department has in place
           to manage payments for purchase cards;

       • 	 Obtained comparative data about purchase card use by Principal Office and a data extract
           file of all Department purchase card activity for a one-year period, July 1, 2005 through
           June 30, 2006, from the Department's Contracts and Purchasing Support System and the
           BOA Electronic Government Ledger System (EAGLS);

       • 	 Analyzed 8,549 Department purchase card transactions totaling approximately $2.9
           million during the review period, and identified and assessed 8 transactions totaling
           approximately $37,000, that exceeded the micro-purchase threshold for the review
           period;

       • 	 Perfonned a digital analysis ofthe Department's purchase card data file using Benford's
           Law, to identify unusual occurrences of digit combinations, which may be indicative of
           possible error, fraud, manipulative bias or processing inefficiency;

       • 	 Identified 15 two-digit combinations that exceeded the expected rate of occurrence,
           representing 1,817 purchase card transactions totaling approximately $874,000;

       • 	 Perfonned an analytical review of the 1,817 purchase card transactions by cardholder and
           merchant, to eliminate high occurrence transactions that were considered low-risk in
           nature;
Final Report                                                                   Page 5 of6
ED-OIG/A17G0012


       • 	 Ofthe remaining 236 purchase card transactions, we then assessed a limited judgmental
           sample of20 purchase card transactions totaling approximately $13,000. We traced the
           sample items back to source documentation and conducted follow-up discussions with
           various components of the Department, when necessary.

We relied on computer-processed data obtained from BOA (EAGLS) of all Department purchase
card activity during the review period. For purposes of data reliability testing of the BOA (EAGLS)
file, we verified the completeness and accuracy of the data by reviewing cardholder statements,
invoices, receipts, and other supporting documentation to validate purchase amounts recorded in
these systems.

We also verified monthly purchase card payments made by the Department to BOA, by comparing a
monthly BOA payment file to the wire payments contained in the BOA (EAGLS) data extract file
and noted no exceptions. In addition, we secured general ledger documentation to support the
purchase card payments. Based on our testing, we concluded that the computer-processed data was
sufficiently reliable for the purpose of our audit.

Our audit focused on purchase card activity during the period July 1, 2005 through June 30,
2006. We conducted our fieldwork from September 2006 through February 2007 at the
Department's offices located in Washington, DC. We held an exit conference with Department
officials on March 13,2007. We performed our audit in accordance with generally accepted
government auditing standards appropriate to the scope of review described above.


                            ADMINISTRATIVE MATTERS 



Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department's Audit Accountability and Resolution
Tracking System (AARTS). ED policy requires that you develop a final CAP for our review in
the automated system within 30 days of the issuance of this report. The CAP should set forth the
specific action items, and targeted completion dates, necessary to implement final corrective
actions ofthe finding and recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.
Final Report                                                                 Page 60f6
ED-OIG/AI7GOOI2


In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
call Greg Spencer at (202) 245-6015.


                                        Sincerely,



                                        George A. Rippey
                                        Acting Assistant Inspector General for Audit




Attachment
                                                                                                 Attachment 1




                        UNITED STATES DEPARTMENT OF EDUCATION
                                  OFFICE OF THE CHIEF. FINANCIAL OFFICER

                                                                       THE CHIEF FINANCIAL OFFICER

                                        MAY 1 7 2007


MEMORANDUM

TO:             .	George Rippey
                 Acting Assistant Inspector General for Audit Services" .
                  Office ofJnspector General                              .,"'.

FROM:           Lawrence Warder
                Chief Financial Officer

SUBJECT: 	 Draft. Audit Memorandum, Digital Analysis ofDepartment Purclwse Card Activity
           Control Number ED-0IG/AI7GOO12

I am pleased to have the opportunity to respond to the Office ofJnspector General (OIG) Draft Audit
Memorandum entitled, Digital Analysis ofDepartment Purclwse Card Activity. The Office ofthe
Chief Financial Officer (OCFO) has no comment on the objectives, scope, methodology or findings in
the report We are pleased that your analysis ofover 8,500 purchase card transactions totaIing
approximately $2.9 million resulted in only one finding. We generally concur with the report's two
recommendations. Attached is the draft Corrective Action Plan which we propose to resolve this
audit

Ifyou have any qUestions regarding this response, please feel free to contact Cynthia Bond-Butler at
202-245-6221.

Attachment: Draft Corrective Action Plan




                                400 MARYLAND AVE., S.W.. WASHINGTON, D,C. 20202-4300
                                                       www.ed.gov
                                    400MarylandAw.nue, S.W., Washingroo. OC 2!1ltl2
             Our~~f~                                                     .	                    theNatWn.
